Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL

       THE CENTERS FOR
MEDICARE & MEDICAID SERVICES
  PAID MEDICARE ADVANTAGE
 ORGANIZATIONS FOR SERVICES
  PROVIDED TO BENEFICIARIES
 CONFINED IN MENTAL HEALTH
        FACILITIES FOR
  COURT-ORDERED PURPOSES

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        June 2014
                                                      A-07-13-06043
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY


The Centers for Medicare & Medicaid Services made payments to Medicare Advantage
organizations totaling over $1 million on behalf of beneficiaries who were confined in mental
health facilities by court order under a penal code during 2011 and 2012.


WHY WE DID THIS REVIEW

While performing a separate review of Medicare Part D prescription drug payments made on
behalf of beneficiaries incarcerated in correctional facilities (incarcerated beneficiaries), we
observed that although Part C (i.e., Medicare Advantage (MA)) and Part D requirements
generally prohibit benefits paid on behalf of incarcerated beneficiaries, the requirements allow
benefits paid on behalf of beneficiaries confined in mental health facilities (State hospitals,
Institutions for Mental Diseases, psychiatric hospitals, or hospital psychiatric units) by court
order under a penal code. (We refer to these individuals as “confined beneficiaries.”) In
contrast, Medicare’s traditional fee-for-service (FFS) program (Part A and Part B) generally does
not pay benefits on behalf of incarcerated or confined beneficiaries. Because of this inconsistent
policy, we evaluated the impact on MA of paying for services provided to confined beneficiaries.

The objective of this review was to evaluate the impact of the payments that the Centers for
Medicare & Medicaid Services (CMS) made to MA organizations on behalf of confined
beneficiaries during calendar years (CYs) 2011 and 2012.

BACKGROUND

CMS’s MA program offers beneficiaries managed care options by allowing them to enroll in
private health plans rather than having their care covered through Medicare Parts A and B.
CMS, which administers Medicare, contracts with MA organizations to provide health care
services to beneficiaries enrolled in MA. MA organizations cover all medically necessary
services, other than hospice care, that are allowable in Parts A and B. CMS makes monthly
payments to MA organizations for enrolled beneficiaries.

Federal regulations state that an individual is eligible to enroll in an MA plan if he or she is
entitled to Medicare under Part A and enrolled in Part B. However, under current policy for the
administration of MA, CMS does not consider confined beneficiaries to be incarcerated for the
purpose of MA eligibility, regardless of the reason for their confinement (Medicare Managed
Care Manual (the Manual), chapter 2, § 10).

For Medicare Parts A and B, beneficiaries in custody of penal authorities include confined
beneficiaries. Medicare generally does not pay Part A and Part B benefits to incarcerated
beneficiaries, but those beneficiaries retain their entitlement to Part A and can retain their
enrollment in Part B with the payment of premiums. Accordingly, these individuals would be
eligible for payments under MA.




Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)   i
WHAT WE FOUND

CMS made 1,018 payments, totaling $1,012,907, to MA organizations on behalf of 207 confined
beneficiaries during CYs 2011 and 2012. Had those same persons been enrolled in Medicare
Parts A or B, payment would generally not have been made. This occurred because CMS policy
permits Medicare payments to be made on behalf of confined beneficiaries enrolled in MA but
not on behalf of those enrolled in Part A or Part B. Although the Social Security Act prohibits
payment by Medicare Parts A and B when a confined beneficiary has no legal obligation to pay
for the services or the services are paid for by a governmental entity, the MA program pays
benefits on behalf of confined beneficiaries.

WHAT WE RECOMMEND

We recommend that, to be consistent with the relevant provisions of Medicare Part A and Part B,
CMS revise the Manual to prohibit MA payments made on behalf of beneficiaries who have
been confined in mental health facilities by court order under a penal code, which could have
resulted in cost savings totaling $1,012,907 for the 2-year period we reviewed.

                            CMS COMMENTS AND OUR RESPONSE

In written comments on our draft report, CMS did not concur with our recommendation. CMS
stated that “not all individuals confined in [mental health facilities] are placed there due to
violations of the jurisdiction’s penal code.” CMS also said that it agrees that “in cases where the
information indicates an individual is incarcerated due to penal code violations, that individual is
determined to no longer reside in the plan’s service area and should be disenrolled….”
Moreover, CMS said that it has recently proposed regulatory changes that will prohibit new or
continued enrollment of incarcerated individuals. Finally, CMS said that “[i]f the proposed
regulations clarifying the relevant policy are finalized, CMS will update the Manual to … clarify
when confinement in [a mental health facility] is permitted for MA enrollment.”

After reviewing CMS’s comments, we sharpened our definition of “confined beneficiaries” and
revised our recommendation in this final report. We did so to clarify that throughout the report
we are referring only to beneficiaries who are confined in mental health facilities by court order
under a penal code. Our review identified confined beneficiaries according to CMS’s Prison
Reply Data file. It is with respect to those beneficiaries (i.e., beneficiaries who are reported as
incarcerated on the Prison Reply Data file for violating the penal code) that we are
recommending that CMS prohibit MA payments. We note, however, that CMS’s proposed
change to the definition of “service area” will exclude mental health facilities from facilities in
which individuals are incarcerated. This will not serve to exclude from MA coverage individuals
held in the custody of penal authorities in mental health facilities. CMS could implement our
recommendation by taking two steps, the first of which would involve not adopting the proposed
change to the definition of “service area.” The second step would be to define individuals who
are in custody of penal authorities for purposes of MA in the same manner that it defines those
individuals for Medicare Parts A and B in Federal regulations and the Medicare Benefit Policy
Manual. These measures would have the effect of implementing our recommendation by
differentiating between individuals confined to mental health facilities under a penal statute (who



Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)   ii
would not be covered) and individuals confined to mental health facilities under a civil statute
(who would be covered).




Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)   iii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 Medicare Advantage Program .............................................................................1
                 Medicare Payments on Behalf of Confined Beneficiaries ...................................2
                 Obtaining Information for Confined Beneficiaries ..............................................2

           How We Conducted This Review....................................................................................3

FINDING .....................................................................................................................................3

           Federal Requirements ......................................................................................................3

           Differing Policy Allows CMS To Provide Medicare Advantage
            Coverage to Confined Individuals ................................................................................4

RECOMMENDATION…………………………………………………… ...............................4

CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE .......................5

APPENDIXES

           A: Audit Scope and Methodology ..................................................................................6

           B: CMS Comments ……………………………………………………………........... .8




Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)                                                 iv
                                            INTRODUCTION

WHY WE DID THIS REVIEW

While performing a separate review of Medicare Part D prescription drug payments made on
behalf of beneficiaries incarcerated in correctional facilities (incarcerated beneficiaries), 1 we
observed that although Part C (i.e., Medicare Advantage (MA)) 2 and Part D requirements
generally prohibit benefits paid on behalf of incarcerated beneficiaries, the requirements allow
benefits paid on behalf of beneficiaries confined in mental health facilities (State hospitals,
Institutions for Mental Diseases, psychiatric hospitals, or hospital psychiatric units) by court
order under a penal code. (We refer to these individuals as “confined beneficiaries.”) In
contrast, Medicare’s traditional fee-for-service (FFS) program (Part A and Part B) generally does
not pay benefits on behalf of incarcerated or confined beneficiaries. Because of this inconsistent
policy, we evaluated the impact on MA of paying for services provided to confined
beneficiaries. 3

OBJECTIVE

Our objective was to evaluate the impact of the payments that the Centers for Medicare
& Medicaid Services (CMS) made to MA organizations on behalf of confined beneficiaries
during calendar years (CYs) 2011 and 2012.

BACKGROUND

Medicare Advantage Program

CMS’s MA program offers beneficiaries managed care options by allowing them to enroll in
private health plans rather than having their care covered through Medicare Parts A and B.
Participating MA organizations include health maintenance organizations, preferred provider
organizations, provider-sponsored organizations, and private FFS plans. CMS, which
administers Medicare, contracts with MA organizations to provide health care services to
beneficiaries enrolled in MA. MA organizations cover all medically necessary services, other
than hospice care, that are allowable in Parts A and B.



1
 Medicare Improperly Paid Millions of Dollars for Prescription Drugs Provided to Incarcerated Beneficiaries
During 2006 Through 2010 (A-07-12-06035), January 27, 2014.
2
 The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer beneficiaries managed
care options through the Medicare+Choice program. Section 201 of the Medicare Prescription Drug, Improvement,
and Modernization Act of 2003, P.L. No. 108-173, revised Medicare Part C and renamed the program the MA
program.
3
 A separate audit, Medicare Part D Paid Sponsors for Prescription Drugs Provided to Beneficiaries Confined in
Mental Health Facilities for Court-Ordered Purposes (A-07-13-06041), will report on the impact on the Part D
program.




Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)              1
CMS makes monthly payments to MA organizations for enrolled beneficiaries. 4 CMS makes
these payments at the beginning of the month on the basis of the most current information
available. 5

Medicare Payments on Behalf of Confined Beneficiaries

An individual is eligible to enroll in an MA plan if he or she is entitled to Medicare under Part A
and enrolled in Part B (42 CFR § 422.50(a)(1)). In addition, an individual must also meet
residency requirements of the MA plan (42 CFR § 422.50(a)(3)).

Chapter 2 of CMS’s Medicare Managed Care Manual (the Manual), uses the term
“incarceration” to refer to the status of an individual who has been placed in a correctional
facility, such as a jail or a prison. According to the Manual, an individual who is incarcerated is
considered to be residing outside of any MA plan’s service area for the purposes of eligibility,
even if the correctional facility is located within a plan’s service area. Federal regulations
similarly state that facilities in which individuals are incarcerated are not regarded as being
within MA plan service areas (42 CFR § 422.2).

The Manual, chapter 2, provides guidance to MA organizations as to MA beneficiary enrollment
and disenrollment. Under CMS policy, confined beneficiaries 6 are not considered to be
incarcerated for the purpose of MA eligibility and are not excluded from the service area of an
MA plan (the Manual, chapter 2, § 10).

Section 1862 of the Act provides that no payment will be made under Medicare Parts A or B for
services for which a beneficiary has no legal obligation to pay or which are paid for by a
governmental entity. Accordingly, Federal regulations (42 CFR § 411.4(b)) generally prohibit
Parts A and B payments for services rendered to beneficiaries in custody of penal authorities.
Federal regulations provide that, for Parts A and B, beneficiaries in custody of penal authorities
include confined beneficiaries. Medicare generally does not pay Part A and Part B benefits to
incarcerated beneficiaries, but those beneficiaries retain their entitlement to Part A and can retain
their enrollment in Part B with the payment of premiums. Accordingly, these individuals would
be eligible for payments under MA.

Obtaining Information for Confined Beneficiaries

The Social Security Administration (SSA) is CMS’s primary source of information about
incarcerated beneficiaries. Generally, SSA collects information, such as the names of Medicare
beneficiaries and the dates on which beneficiaries begin periods of incarceration, directly from

4
    The Social Security Act (the Act), § 1853(a)(1)(A), 42 U.S.C. § 1395w-23(a)(1)(A).
5
    The monthly payments are based on each beneficiary’s demographic and health status information.
6
 The classification “confined beneficiaries” includes beneficiaries who are confined in mental health facilities by
court order under a penal code, including those beneficiaries determined to be incompetent to stand trial, adjudged
not guilty by reason of insanity, or awaiting a determination of competence to stand trial.




Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)                    2
penal authorities. SSA also collects incarceration end dates from beneficiaries’ requests for
reinstatement of Social Security benefits.

CMS’s Enrollment Database (EDB) interfaces with SSA’s systems to identify incarcerated
beneficiaries. 7 Each month, CMS receives a file, known as the Prison Reply Data file, from
SSA. This file includes information about each incarcerated beneficiary, the incarceration start
date and end date (if applicable), and facility information (such as the name and type of facility)
that we used to determine whether the facility was a mental health facility.

HOW WE CONDUCTED THIS REVIEW

We identified confined beneficiaries according to CMS’s Prison Reply Data file as of
November 27, 2012, and used the EDB (as of February 23, 2013) to identify confined
beneficiaries (as listed in the Prison Reply Data file) who were confined in mental health
facilities at some point during CYs 2011 and 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                  FINDING

CMS made 1,018 payments, totaling $1,012,907, to MA organizations on behalf of 207 confined
beneficiaries during CYs 2011 and 2012. Had those same persons been enrolled in Medicare
Parts A or B, payment would generally not have been made. This occurred because CMS policy
permits Medicare payments to be made on behalf of confined beneficiaries enrolled in MA but
not on behalf of those enrolled in Part A or Part B. Although the Act prohibits payment by
Medicare Parts A and B when a confined beneficiary has no legal obligation to pay for the
services or the services are paid for by a governmental entity, the MA program pays benefits on
behalf of confined beneficiaries.

FEDERAL REQUIREMENTS

Section 1862 of the Act and Federal regulations generally prohibit payment for Medicare Part A
and Part B services rendered to beneficiaries in custody of penal authorities. Federal regulations,
however, allow payment if the State or local law requires these beneficiaries to repay the cost of
medical services and if the State or local government entity enforces the requirement to pay
(42 CFR § 411.4(b)).


7
 The EDB uses information from SSA to identify incarcerated individuals. These data are ultimately provided to
MA organizations to verify a beneficiary’s eligibility for MA.



Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)               3
Federal regulations governing Medicare Parts A and B define individuals who are in custody of
penal authorities as “… individuals who are under arrest, incarcerated, imprisoned, escaped from
confinement, under supervised release, on medical furlough, required to reside in mental health
facilities, required to reside in halfway houses, required to live under home detention, or
confined completely or partially in any way under a penal statute or rule” (42 CFR § 411.4(b);
emphasis added).

Federal regulations state that an individual is eligible to enroll in an MA plan if he or she is
(1) entitled to Medicare benefits under Part A and enrolled in Part B and (2) resides in the service
area of the MA plan (42 CFR § 422.50(a)(1), (3)(i)). 8 Facilities in which individuals are
incarcerated are not included in the service area of an MA plan (42 CFR § 422.2). A beneficiary
who is incarcerated “is considered to be residing outside the plan’s service area, even if the
correctional facility is located within the plan’s service area” (the Manual, chapter 2, § 50.2).

The Manual, chapter 2, provides guidance to MA organizations as to MA beneficiary enrollment
and disenrollment. Individuals who fall within the classification of confined beneficiaries6 are
not considered to be incarcerated for the purpose of MA eligibility and are not excluded from the
service area of an MA plan on that basis (the Manual, chapter 2, § 10).

DIFFERING POLICY ALLOWS CMS TO PROVIDE MEDICARE ADVANTAGE
COVERAGE TO CONFINED INDIVIDUALS

CMS made payments to MA organizations on behalf of confined beneficiaries because CMS
policy is different for MA than it is for Parts A and B. This policy difference allows confined
beneficiaries to receive MA benefits even though Federal requirements prohibit coverage under
Parts A and B (the Act, § 1862; 42 CFR § 411.4(b)). Although the original Medicare Parts A
and B legislation worked to generally prohibit payments for confined individuals, CMS permits
MA payments on behalf of confined beneficiaries even though confined beneficiaries have no
legal obligation to pay for services or the services are paid for by a governmental entity.

Because of the foregoing policy differences, CMS made 1,018 payments totaling $1,012,907 to
MA organizations on behalf of 207 confined beneficiaries during CYs 2011 and 2012. The
absence of a consistent payment policy across the various Medicare programs works to prevent
those programs from achieving the uniformity they need to be administered efficiently.

                                            RECOMMENDATION

We recommend that, to be consistent with the relevant provisions of Medicare Part A and Part B,
CMS revise the Manual to prohibit MA payments made on behalf of beneficiaries who have
been confined in mental health facilities by court order under a penal code, which could have
resulted in cost savings totaling $1,012,907 for the 2-year period we reviewed.


8
 There is a limited exception for beneficiaries residing outside the service area who are enrolled in a health plan
offered by the MA organization during the month immediately preceding the month in which they are entitled to
both Medicare Part A and Part B (42 CFR § 422.50(a)(3)(ii)).



Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)                    4
           CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS did not concur with our recommendation. CMS
stated that “not all individuals confined in [mental health facilities] are placed there due to
violations of the jurisdiction’s penal code.” CMS also said that it agrees that “in cases where the
information indicates an individual is incarcerated due to penal code violations, that individual is
determined to no longer reside in the plan’s service area and should be disenrolled….”
Moreover, CMS said that it has recently proposed regulatory changes that will prohibit new or
continued enrollment of incarcerated individuals. 9 Finally, CMS said that “[i]f the proposed
regulations clarifying the relevant policy are finalized, CMS will update the Manual to … clarify
when confinement in [a mental health facility] is permitted for MA enrollment.”

CMS’s comments are included in their entirety as Appendix B.

After reviewing CMS’s comments, we sharpened our definition of “confined beneficiaries” and
revised our recommendation in this final report. We did so to clarify that throughout the report
we are referring only to beneficiaries who are confined in mental health facilities by court order
under a penal code. As indicated in “How We Conducted This Review” and Appendix A, our
review identified confined beneficiaries according to CMS’s Prison Reply Data file. It is with
respect to those beneficiaries (i.e., beneficiaries who are reported as incarcerated on the Prison
Reply Data file for violating the penal code) that we are recommending that CMS prohibit MA
payments. We note, however, that CMS’s proposed change to the definition of “service area”
will exclude mental health facilities from facilities in which individuals are incarcerated. 10 This
will not serve to exclude from MA coverage individuals held in the custody of penal authorities
in mental health facilities. CMS could implement our recommendation by taking two steps, the
first of which would involve not adopting the proposed change to the definition of “service area.”
The second step would be to define individuals who are in custody of penal authorities for
purposes of MA in the same manner that it defines those individuals for Medicare Parts A and B
in 42 CFR 411.4(b) and the Medicare Benefit Policy Manual, chapter 16, section 50.3.3(2).
These measures would have the effect of implementing our recommendation by differentiating
between individuals confined to mental health facilities under a penal statute (who would not be
covered) and individuals confined to mental health facilities under a civil statute (who would be
covered).




9
    79 Fed. Reg. 1917 (Jan. 10, 2014).
10
     79 Fed. Reg. at 2051.



Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)   5
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $1,012,907 that CMS paid to MA organizations on behalf of 207 confined
beneficiaries during CYs 2011 and 2012. We did not review CMS’s overall internal control
structure because our objective did not require us to do so. We reviewed only the internal
controls directly related to our objective.

We did not verify the confinement status or dates of confinement of the beneficiaries whom we
identified as confined.

We conducted this audit from November 2011 through August 2013.

METHODOLOGY

To accomplish our objective, we:

        •   reviewed applicable Federal laws, regulations, and guidance;

        •   held discussions with CMS officials to gain an understanding of CMS’s internal
            controls related to incarcerated beneficiaries and policies for eligibility for confined
            beneficiaries;

        •   held discussions with SSA officials to gain an understanding of SSA’s systems and
            processes for obtaining data on incarcerated individuals;

        •   obtained CMS’s Prison Reply Data file (received monthly from SSA) to identify (as
            of November 27, 2012) confined beneficiaries;

        •   used the EDB (as of February 23, 2013) to identify confined beneficiaries (from
            CMS’s Prison Reply Data file) who were confined in mental health facilities at some
            point during CYs 2011 and 2012;

        •   obtained payment information for these confined beneficiaries from the Medicare
            Advantage and Prescription Drug system for CYs 2011 and 2012;

        •   identified 1,018 payments totaling $1,012,907 that CMS made to MA organizations
            for confined beneficiaries; and

        •   discussed the results of our review and provided detailed information to CMS
            officials on March 12, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)     6
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06043)   7
                                        APPENDIX B: CMS COMMENTS 




  (.:!/-	
   /,p.lilf:ts'
                   DEPAIITMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


                                                                                             Administrator
                                                                                             Washington, DC 20201




                  DATE:
                                  APR - 2 2014
                  TO: 	          Daniel R. Levinson


                  FROM:      ~:::~
                              -~;or
                  SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "The Centers for Medicare &
                             Medicaid Services Paid Medicare Advantage Organizations for Services Provided
                             to Beneficiaries Confined in Mental Health Facilities for Court-Ordered
                             Purposes" (A-07-13-06043)


                  Thank you for the opportunity to review and comment on this OIG draft report aimed at
                  determining the extent to which the Centers for Medicare & Medicaid Services (CMS) paid
                  Medicare Advantage Organizations (MAOs) for individuals confined in mental health facilities
                  by court order. Individuals may enroll in MAOs if they meet the eligibility requirements, which
                  include residing within the plan's service area. Consistent with this policy, and as outlined in the
                  definition of" service area" in 42 CFR 422.2, an individual who is incarcerated does not reside in
                  a plan service area; service is provided by the penal facility in which the individual is confined.
                  However, not all individuals confined in Institutions for Mental Disease (IMDs) are placed there
                  due to violations of the jurisdiction' s penal code. A number of individuals are confined by other
                  types of court orders for which there is not another appropriate payer for services. Thus, the
                  current Medicare Managed Care Manual outlines the availability for individuals confined to
                  IMDs to reside within the MAO' s service area.

                  The status of incarceration comes from data provided by the Social Security Administration
                  (SSA) based on information from penal facilities. That information is used to apply payment
                  rules for fee-for-service. To help align the Fee-for-Service program with the Medicare
                  Advantage (MA) program, CMS recently proposed regulation changes which prohibit new or
                  continued enrollment of incarcerated individuals (79 FR 1917). As part of this proposed
                  regulation, incarcerated individuals will lose enrollment eligibility for MA based on the data
                  provided to CMS by SSA. In such cases, CMS proposed that individuals will be involuntarily
                  disenrolled from their MAO.

                  Although CMS does not support the report's recommendation to modify the Medicare Managed
                  Care Manual to prohibit MA payments made on behalfofconfined beneficiaries, we strive to
                  ensure payments are not made for individuals not eligible for MAO enrollment. Accordingly, we
                  agree that in cases where the information indicates an individual is incarcerated due to penal




Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A -07-13-06043)                                     8
              Page 2- Daniel R. Levinson


              code violations, that individual is detennined to no longer reside in the plan' s service area and
              should be disenrolled, following regulatory requirements.

              The CMS is taking steps-to clarify the policies and ensure that the enrollment policies are in
              accordance with the information we receive from the correctional facilities and SSA.

              Below is the CMS response to the OIG recommendation in the draft report.

              OIG Recommendation

              The OIG recommends CMS revise the Manual to prohibit MA payments made on behalf of
              confined beneficiaries, which could have resulted in cost savings totaling $1 ,012,907 for the two
              year period reviewed.

              CMS Response

              The CMS non-concurs with this recommendation because the Medicare Managed Care Manual
              is related to enrollment guidance, and this guidance outlines a process for disenrolling
              incarcerated individuals resulting in the cessation of MA payments. As MA capitated payment is
              based on whole months ofenrollment, CMS is not able to establish partial payments based on an
              exact incarceration date. However, CMS has recently proposed regulation changes which
              prohibit new or continued enrollment of incarcerated individuals (79 FR 1917). As part of this
              proposed regulation, CMS proposed to share incarceration data with MAOs so that eligibility for
              enrollment can be detennined appropriately and disenrollments can occur based on the data
              regarding the incarceration provided by SSA. CMS believes that if the proposed regulation is
              finalized, it would serve to meet OIG's goal of limiting MAO capitation payments for known
              incarcerated individuals.

              The CMS continues to believe that it is appropriate for beneficiaries confined to IMDs, not based
              on criminal offenses, to be included within the MAO's service area, as there are individuals who
              are confined by court order to an IMD for which no penal codes were violated. Thus, some
              enrollments of individuals residing in IMDs are appropriate and these individuals will remain
              able to enroll and obtain services through the MAO. If the proposed regulations clarifying the
              relevant policy are finalized , CMS will update the Manual to include the policy and clarify when
              confinement in an IMD is pennitted for MA enrollment.

              Thank you again for the opportunity to review and comment on this report. We appreciate the
              time and effort that went into developing it, and look forward to continuing to work with the OIG
              on this issue.




Medicare Advantage Payments for Beneficiaries Confined in Mental Health Facilities (A -07-13-06043)                9
